No. 19-566

 

 

IN THE

Supreme Court of the United States

DEVAN PIERSON,
Petitioner,

Vv.

UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
1,228 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 18, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
